                                          September 29, 2006




MEMORANDUM TO:              Luis A. Reyes
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    PERSPECTIVE ON NRC’S PRA POLICY STATEMENT
                            (OIG-06-A-25)

Attached is the Office of the Inspector General (OIG) report, Perspective on NRC’s PRA
Policy Statement. OIG conducted a review of historical documents and information
surrounding the use of risk in regulation at NRC to more clearly understand how PRA
fits into NRC’s use of risk regulation. OIG’s report identifies key historical underpinnings
of risk-informed regulation at NRC. This report is being issued as a supplement to the
Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA) in Regulating the
Commercial Nuclear Power Industry (OIG-06-A-24)

At an exit meeting on September 8, 2006, NRC officials basically agreed with the report
and provided editorial suggestions, which OIG incorporated as appropriate.

We appreciate the courtesies and cooperation extended to us by members of your staff
during the audit. If you have any questions or comments about our report, please feel
free to contact me at 415-5915 or Tony Lipuma at 415-5910.

Attachment: As stated
Electronic Distribution

John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
  State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
   and Administration, and Chief Information Officer, OEDO
Michael R. Johnson, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Janet R. Schlueter, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
                     AUDIT REPORT


                          Perspective on NRC’s PRA
                              Policy Statement

                      OIG-06-A-25 September 29, 2006




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                               Perspective on NRC’s PRA Policy Statement



EXECUTIVE SUMMARY

   BACKGROUND

        •    Probabilistic risk assessment (PRA) is a tool for assessing, in a
             realistic manner, the strengths and weaknesses of plant design
             and operation. PRA has been used by the nuclear industry and
             the Nuclear Regulatory Commission (NRC) since the 1970s. To
             clarify its expectations on the usage of PRA, NRC issued a
             formal PRA policy statement in 1995, which has not been
             revised since its publication.

        •    The agency’s PRA policy statement reflects a commitment to
             increasing the use of PRA technology. The following three
             aspects specifically referenced in the policy statement direct the
             increased use of PRA:

                1. to the extent supported by the state-of-the-art in PRA
                   methods and data,

                2. in a manner that complements the NRC’s deterministic
                   approach, and

                3. that supports the NRC’s traditional defense-in-depth
                   philosophy.

   PURPOSE

        •    To gain an in-depth perspective of NRC’s use of PRA, OIG
             reviewed the development of the agency’s PRA policy
             statement.

        •    From a historical basis, OIG synopsized the development of
             PRA and the resultant PRA policy statement. OIG reviewed the
             policy statement focusing on how PRA complements NRC’s
             traditional deterministic approach and how PRA supports
             defense-in-depth. This report contains no recommendations.

   INTRODUCTION

        •    NRC’s policy statement identifies the importance of PRA in
             understanding “risk.”

        •    Risk is the possibility of loss or injury.




                                       i
                                         Perspective on NRC’s PRA Policy Statement



     •   A “PRA” is a tool to identify severe accident vulnerabilities and
         provide specific quantitative results.

     PRA POLICY STATEMENT
     •   The deterministic approach to reactor safety involves the
         selection of a prescribed limiting set of accidents. For each
         accident, the NRC requires a conservative means of evaluating
         the accident sequence in terms of methodology and
         assumptions used to evaluate the accident sequence. NRC’s
         policy statement establishes the expectation that PRA expand
         on these traditional deterministic approaches.
     •   NRC’s traditional defense-in-depth is composed of layers of
         protection associated with accident prevention, accident
         mitigation, containment, siting, and emergency response and
         the four fission product barriers. The fission product barriers are
         the fuel pellet, the fuel clad, the reactor coolant piping and
         containment. NRC’s PRA policy statement establishes the
         expectation that PRA support these defense-in-depth concepts.

CHRONOLOGY
     The detailed historical chronology is divided into three time periods:

     •   1946-1969 – focuses on the initial uses of reactors, early reactor
         safety approaches, and industry concern with financial risk.

     •   1970-1978 – focuses on the issuance of the Reactor Safety
         Study.

     •   1979-1995 – focuses on the Three Mile Island accident as it
         affected the development of PRA up to the issuance of the PRA
         policy statement.




                                 ii
                                       Perspective on NRC’s PRA Policy Statement



ABBREVIATIONS AND ACRONYMS

       ACRS    Advisory Committee on Reactor Safeguards
       AEC     Atomic Energy Commission
       BWR     boiling-water reactor
       CDF     core damage frequency
       ECCS    emergency core cooling capability
       EDO     Executive Director for Operations
       LOCA    loss of coolant accident
       LOSP    loss of offsite power
       NRC     Nuclear Regulatory Commission
       OIG     Office of the Inspector General
       PRA     probabilistic risk assessment
       PWR     pressurized-water reactor
       TMI     Three Mile Island




                            iii
                       Perspective on NRC’s PRA Policy Statement




[Page intentionally left blank.]




               iv
                                                            Perspective on NRC’s PRA Policy Statement



TABLE OF CONTENTS

      EXECUTIVE SUMMARY.............................................................i

      ABBREVIATIONS AND ACRONYMS ....................................... iii

      I.      BACKGROUND..................................................................1

      II.     PURPOSE..........................................................................1

      III.    INTRODUCTION ................................................................2

             A.   Definition of Risk ...........................................................2
             B.   Description of Probabilistic Risk Assessment
                  (PRA) ............................................................................3

      IV.     PRA POLICY STATEMENT ...............................................6

             A.   Complement Deterministic Approach............................6
             B.   Support “Defense-in-Depth” ..........................................7

      V.      CHRONOLOGY OF RISK DEVELOPMENTS AND KEY
              INFLUENCING EVENTS....................................................9

             A.   Early Reactors, Financial Risks, and Early Public
                  Concerns (1946-1969) ..................................................9
             B.   Safety Concerns and Need to Quantify Risk
                  (1970-1978) ................................................................11
             C.   TMI: Increased Need for PRA Applications
                  (1979-1995) ................................................................13


      APPENDICES

             A.   PRA Policy Statement.................................................21
             B.   Risk Developments and Historical
                  Background 1946-1975...............................................23




                                                 v
                       Perspective on NRC’s PRA Policy Statement




[Page intentionally left blank.]




               vi
                                         Perspective on NRC’s PRA Policy Statement



I.    BACKGROUND

          Probabilistic risk assessment (PRA) is a tool for assessing, in a
          realistic manner, the strengths and weaknesses of plant design
          and operation. PRA has been used by the nuclear industry and
          the Nuclear Regulatory Commission (NRC) since the 1970s. To
          clarify its expectations on the usage of PRA, NRC issued a
          1995 PRA policy statement, which has not been revised since
          its publication.

          The agency’s PRA policy statement reflects a commitment to
          increasing the use of PRA technology. The following three
          aspects specifically referenced in the policy statement direct the
          increased use of PRA:

                 1. to the extent supported by the state-of-the-art in PRA
                    methods and data,

                 2. in a manner that complements the NRC’s
                    deterministic approach, and

                 3. that supports the NRC’s traditional defense-in-depth
                    philosophy.

II.   PURPOSE

          OIG conducted a review of historical documents and information
          relevant to the PRA policy statement to gain a full perspective of
          NRC’s use of PRA. From a historical basis, OIG synopsized the
          development of PRA and the resultant PRA policy statement.
          OIG reviewed the policy statement focusing on how PRA
          complements NRC’s traditional deterministic approach and how
          PRA supports defense-in-depth. This report does not contain
          observations, findings, or recommendations.

          To evaluate NRC’s use of PRA in relation to the “state-of-the
          art” aspect of its policy statement, OIG contracted with
          Scientech, LLC – a contractor with expertise in PRA
          methodology. Scientech evaluated NRC’s internal PRA tools
          (i.e., PRA models and software) against prevailing good
          practices established in industry. Scientech used prevailing
          good practices as a surrogate for the PRA Policy Statement
          term “state-of-the-art” to avoid measuring NRC against leading




                                   1
                                                   Perspective on NRC’s PRA Policy Statement



               edge, not yet fully deployed methods. Prevailing good practices
               are generally accepted practices for conducting, reviewing, and
               documenting PRA. Scientech’s report is issued under separate
               cover.1

III. INTRODUCTION

               NRC’s guiding principles for using PRA in regulatory decisions
               are reflected in the 1995 PRA policy statement. The policy
               statement states that traditional reactor safety2 approaches
               implicitly treat “risk” by considering accidents of varying, yet
               non-quantitative, likelihoods of occurrence. The policy
               statement also identifies the importance of PRA in
               understanding “risk.” However, the policy statement never
               explicitly defines “risk” in either context.

       A.      Definition of Risk

               A dictionary definition of risk indicates that risk is the “possibility
               of loss or injury.” This definition indicates that risk is composed
               of two elements. The first element, “possibility,” refers to the
               likelihood (probability) of some event. The second element of
               risk is “loss or injury” (consequence) flowing from the event.
               Although risk is frequently used to indicate probability alone or
               consequence alone, both elements are necessary for a proper
               description of risk.

               An everyday example can be used to demonstrate the two
               elements of risk. The owner of an automobile may take actions
               to reduce the likelihood (probability) of accidents through
               preventative maintenance, safe driving practices, or reducing
               unnecessary trips. The automobile owner may use airbags and
               seatbelts to reduce the degree of injury (consequence 1) in the
               event of an accident. The owner may choose to have certain
               levels of collision and liability insurance to reduce the degree of
               financial loss (consequence 2) in the event of an accident. In
               this manner, the risk of injury and financial loss associated with
               automobile ownership can be managed.




1
  Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA) In Regulating the
Commercial Nuclear Power Industry, Scientech, LLC, September 2006.
2
  The term “traditional reactor safety” is used in this report as shorthand for the policy
statements phrase “NRC's deterministic approach and the NRC's traditional defense-in-depth
philosophy.” Refer to the background section of Federal Register notice (60 FR 42622).
                                            2
                                                       Perspective on NRC’s PRA Policy Statement



                In the context of nuclear power, risk is composed of the same
                basic elements. In this context, risk is most often characterized
                as a combination of the “probability” of a reactor accident and
                the consequences arising from that accident. In current risk
                assessment frameworks, the following arithmetic relationship is
                frequently used:


                            Risk = Probability x Consequences3


                NRC more generally characterizes risk in terms that can be
                applied to the entire range of activities involving NRC licensees.
                As such, the agency asks the following three questions to define
                risk:

                         1. What can go wrong?

                         2. How likely is it?

                         3. What are the consequences?

                NRC refers to these three questions as the risk triplet. The first
                question is typically answered in the form of a “scenario” or a
                set of scenarios. The second question refers to probability and
                uncertainties involved. Whereas, the third question deals with
                the consequence or outcomes.

                In reactor safety applications, typical probabilities cited involve
                core damage scenarios and radionuclide release scenarios.
                Typical consequences cited are radiation dose, health impact,
                or property damage.

        B.      Definition of Probabilistic Risk Assessment (PRA)

                A “PRA” is a tool used to identify severe accident vulnerabilities
                and provide specific quantitative results. There are three levels
                of PRA -- an individual PRA evaluation can be performed at any
                of these levels.




3
  The NRC has not explicitly treated societal perception of different risks (risk harmonization)
associated with reactor accidents. Such approaches are addressed in risk literature,
including the use of risk conversion factors (RCF), where Risk = probability x consequence x
RCF. See for example different RCFs for prompt death or latent cancer death addressed in
“The Analysis of Actual Versus Perceived Risk,” Plenum Press, 1983, (pages 213-233).
                                               3
                                                     Perspective on NRC’s PRA Policy Statement



                1.    Level One PRA - a systematic assessment of accident
                      initiators and system/operator responses. It reports core
                      damage frequency and contributors to core damage
                      frequency. A level one is the most commonly used PRA in
                      regulatory decision making.

                2.    Level Two PRA - an assessment of frequency and modes
                      of containment failure. It reports categories and
                      frequencies of radionuclides released to the atmosphere.

                3.    Level Three PRA - a radiological consequences
                      assessment of public health consequences. It reports an
                      estimation of economic and public health risks.

                A PRA4 calculates the probability of core damage for a specific
                reactor through the use of fault trees5 and event trees.6 Fault
                trees and event trees are analytical tools used to develop a near
                exhaustive summary of sequence of failures that will lead to
                core melt. The accident sequences are not limited to the design
                basis accidents used in traditional deterministic reactor safety.7
                Design basis accidents are the set of prescribed hypothetical
                accidents which a reactor is designed to mitigate by preventing
                significant core damage.

                Equipment failure probabilities are incorporated into the logic
                models representing the trees. This data is employed in the
                models to calculate core damage frequency for a reactor under
                evaluation. The details surrounding fault tree and event tree
                construction and the methods are complex and beyond the
                scope of this report.

                Core damage frequency provides a key risk metric for each
                reactor. In this manner, reactors can be compared on a risk
                basis using CDF.8 Core damage frequency (CDF) is calculated
                from the probability of core damage. CDF represents the
                number of core damage events per reactor year of operation.
                Therefore, lower values represent lower “risk” values. For

4
  PRA is used as shorthand for a “Level 1 PRA” in the remainder of the discussion.
5
  Fault tree analysis is an evaluation of a system, component, or function in the context of
environment, dependencies, and operation in an effort to identify all credible ways in which
an undesired state can occur.
6
  Event trees are used to identify accident sequences that result in a specific outcome of
interest (e.g., core damage). An event tree consists of an initiating event (one per tree)
followed by a number of top events with the tree structure below. The top events represent
the systems, components, and operations that are identified by success criteria. Success
criteria establish the performance requirements for the fundamental safety functions which
will be challenged or are necessary to mitigate the accident initiator.
7
  Deterministic reactor safety is discussed in section IV.A.
8
  Within the limitations of the uncertainties of the respective PRA models.
                                              4
                                                   Perspective on NRC’s PRA Policy Statement



                 example, 100 reactors operating for 10 years, represents 1,000
                 reactor years of operation (1,000 = 100 x 10). If the CDF for
                 each of these 100 reactors was 10-03 (0.001), there would be
                 one (1) expected core damage event in that 10 year period
                 (1 = 1,000 x 0.001).

                 Contributors to core damage measure how various events
                 contribute to an individual reactor’s CDF. As an example,
                 Figure 1 provides the principal initiating event contributors to
                 CDF for seismic events at Surry Nuclear Station. The figure
                 demonstrates that transient loss of offsite power (LOSP) and
                 transient seal loss-of-coolant accident (LOCA) are the greatest
                 sources of core damage risk during seismic events at that plant.
                 This information could be useful for evaluating potential safety
                 improvements at the plant. It would lead plant operators to
                 review plant equipment that plays a role in such events.

                                   Figure 1
                            Principal Contributors
                           Core Damage Frequency9




9
    Perspectives on Reactor Safety, NUREG/CR-6042, Rev. 2, March 2002.
                                            5
                                                  Perspective on NRC’s PRA Policy Statement



IV. PRA POLICY STATEMENT
               The overall objective of the PRA policy statement is increased
               use of PRA at the NRC. As such, the policy statement provides
               for an expanded use of PRA in a manner that complements the
               agency’s deterministic approach and supports its traditional
               defense-in-depth philosophy.


       A.      Complement Deterministic Approach

               The deterministic approach to reactor safety establishes
               requirements for engineering margin (design parameters) and
               for quality assurance in design, manufacture, and construction.
               It also assumes that adverse conditions can exist and
               establishes a specific set of design basis events (i.e., what can
               go wrong?). The traditional deterministic approach treats event
               likelihood in non-quantitative or semi-quantitative terms. Design
               basis event frequencies are not required to be calculated, but
               are estimated. These event frequencies are used to inform the
               overall decision-making process for evaluating the plant design,
               by putting design basis accidents into groups with acceptance
               criteria that increase in rigor as event frequency increases.

               NRC establishes conservative limiting acceptance criteria for
               each design basis accident for parameters such as peak fuel
               clad temperature, peak containment pressure, and post
               accident radiological dose for an individual located at the site
               boundary. An analytical model is used to calculate results for
               specified parameters for each design basis accident. The
               calculated results must meet acceptance criteria10 established
               by the NRC, thereby demonstrating that the plant will operate
               within the design basis accident requirements. In this manner
               the deterministic approach uses a rigorous quantitative
               approach for determining event consequences.


               In terms of the risk triplet, the traditional deterministic approach
               treats the first question, “What can go wrong?” -- but treatment
               is limited to a prescribed set of design basis events. The
               second question, “How likely is it?” is treated in a non-
               quantitative or semi-quantitative approach. The third question,
               “What are the consequences?” is treated using a rigorous
               quantitative approach for determining event consequences.

10
  Or the licensee must demonstrate and the NRC must accept a basis for adequate
protection for public health and safety on a case by case basis.
                                           6
                                    Perspective on NRC’s PRA Policy Statement



     NRC’s policy statement establishes the expectation that PRA
     expand on the traditional deterministic approach. Specifically,
     the policy statement compliments the traditional deterministic
     approach by:
     1.   allowing consideration of a broader set of potential
          challenges to safety,
     2.   providing a logical means for prioritizing these challenges
          based on risk significance, and
     3.   allowing consideration of a broader set of resources to
          defend against these challenges.
     In this manner, PRA applications expand “what can go wrong”
     beyond those accidents prescribed in the deterministic
     approach. In addition, PRA develops a rigorous calculated
     basis for core damage frequency, “how likely is it.” In this
     manner, PRA complements the traditional deterministic
     approach.
     These policy statement expectations require that, PRA be used
     to characterize the risk posed by severe accidents and establish
     a means of prioritizing them for eventual resolution. In addition,
     resources beyond those credited in design basis accident
     analysis are allowed in PRA applications.

B.   Support “Defense-In-Depth”

     The principles of defense-in-depth dictate layers of safety in
     plant design and in operating practices. Defense-in-depth also
     stands for the principle that reactor safety should not focus on
     any single layer. Principles of defense-in-depth have evolved
     over a period of years. Defense-in-depth consists of two distinct
     complementary approaches. The first approach involves layers
     of barriers; where each barrier is focused on mitigating the
     consequences of the failure of other barriers. The second
     approach to defense-in-depth is embodied in specific plant
     components. Each component is an immediate physical barrier,
     preventing the release of radioactive fission products; these are
     known as fission product barriers. The fission product barriers
     are arranged so that radioactive material must penetrate all of
     the fission product barriers before reaching the environment.
     These two distinct approaches are described in more detail
     below, and represented in Figure 2.




                              7
                                                         Perspective on NRC’s PRA Policy Statement



                              Figure 2 Defense-in-Depth


                 Layers of Defense                                               Fission Product Barriers

Prevent Accidents: quality assurance, conservative design,                           Environment
                                                              Defense Layer 1
construction, installation, inspection and training

           Prevention Fails


       Mitigate Accidents: Safety Systems                     Defense Layer 2         Containment

           Prevention and Mitigation Fail


        Contain Accidents: Containment                        Defense Layer 3


           Prevention, Mitigation and Containment Fail                          Reactor Coolant Boundary

                                                             Defense Layer 4
    Reactor Siting: Establish Boundaries
                                                                                        Fuel Clad

         Prevention, Mitigation, Containment and Boundaries Fail                        Fuel Pellet


  Emergency Planning: Shelter and Evacuate                   Defense Layer 5


                                                                                      Relative size represents
                                                                                     Fission product quantity
                                                                                Transporting through each boundary



          Defense-in-Depth

          Defense-in-depth principles start with accident prevention
          measures such as quality assurance, conservative design,
          construction, installation, inspection, and training -- each
          designed to reduce the likelihood of a reactor accident.
          Defense-in-depth principles postulate that these prevention
          measures may fail and accidents may still occur. Therefore,
          safety systems are required to mitigate the consequences of
          accidents. To exemplify defense-in-depth principles, the
          Federal Register Notice (60 FR 42622) for the policy statement
          provides that “safety cannot be placed on any single element of
          the design, maintenance, or operation of a nuclear power plant.”




                                                 8
                                        Perspective on NRC’s PRA Policy Statement



         For example, power plants include a containment to reduce the
         likelihood of uncontrolled radioactive releases. However,
         defense-in-depth principles assume that containment can fail.
         As a result, siting criteria along with exclusion areas and low
         population zones are employed to reduce the potential dose
         received by the public in the event of an accidental radiological
         release from containment. Finally, emergency plan
         requirements further provide protection for individuals in the
         vicinity of nuclear plants through sheltering and evacuation
         actions.

V. CHRONOLOGY OF RISK DEVELOPMENTS AND KEY
   INFLUENCING EVENTS
         External influences, circumstances, and events play a role in the
         formulation of agency policy. Policy statements can also be
         traced to predecessor activities. NRC’s 1995 policy statement
         contains an expectation that PRA applications be developed
         consistent with certain traditional reactor safety practices. As a
         result, a historical chronology leading to the PRA policy
         statement is useful in understanding NRC’s PRA policy
         statement. [See Appendix B for a timeline.]

         The detailed chronology is divided into the following three time
         periods:

         •   1946-1969 – focuses on the initial uses of reactors, early
             reactor safety approaches, and industry concern with
             financial risk.

         •   1970-1978 – focuses on the issuance of the Reactor Safety
             Study.

         •   1979-1995 – focuses on the Three Mile Island accident as it
             affected the development of PRA up to the issuance of the
             PRA policy statement.

    A.   Early Reactors, Financial Risks, and Early Public Concerns
         (1946- 1969)

         The Atomic Energy Act of 1946 established a government
         monopoly over reactor ownership and operation. From 1946 to
         1954 reactors were owned and operated by the government for
         purposes of research (research reactors) or for the production of
         plutonium (production reactors) for use in nuclear weapons.



                                  9
                                 Perspective on NRC’s PRA Policy Statement



In 1954, the Atomic Energy Commission (AEC) was statutorily
mandated to stimulate private sector interest in commercial
nuclear power plants. Initial industry interest was tempered by
concern over liability associated with potential catastrophic
reactor accidents.

Early Responsibilities of Atomic Energy Commission

In 1954 when the Atomic Energy Act was amended, it abolished
the government monopoly and gave the AEC two new
mandates. First, the AEC was statutorily charged with
stimulating interest in the private sector for commercial uses of
atomic energy, including nuclear reactors for electrical power
generation. Second, the AEC was responsible for regulating the
use of atomic energy to ensure adequate protection of public
health and safety, and for common defense and security.

The AEC worked to stimulate interest in the use of nuclear
reactors for electrical power generation including a joint project
between government and industry to build the first large scale
electricity generating station. Industry officials were concerned
with the liability that might exist in the event of an unlikely, but
catastrophic reactor accident. This concern represented an
impediment to increased use of nuclear reactors for electrical
power generation.

The Price Anderson Act: Industry Concern for Financial
Liability

The AEC undertook a study to assess the potential liability
posed by a nuclear plant. The results were published in
“Theoretical Possibilities and Consequences of Major Accidents
in Large Nuclear Power Plants” (WASH-740) in 1957. The
study looked at hypothetical worst case scenarios that would
cause the most damage in the event of a nuclear incident.
WASH-740, in combination with the persuasive efforts of
industry and the AEC, convinced Congress to pass liability
legislation. As a result, in 1957 Congress enacted the Price-
Anderson Act to limit the liability faced by operators of nuclear
reactors.

During the 1960s, reactor applications and construction
activities accelerated in response to liability protection, projected
electrical generation growth, and general public support for
nuclear power. By the late 1960s, public opposition to nuclear
power began to grow.


                          10
                                                   Perspective on NRC’s PRA Policy Statement



       B.      Safety Concerns and Need to Quantify Risk (1970-1978)

               By the beginning of the 1970’s, anti-nuclear sentiment had
               grown and gained momentum. Significant concerns were raised
               by research tests of the emergency core cooling systems
               suggesting that these key safety systems may be inadequate.

               Emergency Core Cooling Capability Safety Concern

               The AEC sponsored emergency core cooling capability safety
               (ECCS) research efforts to more fully understand the
               effectiveness and capability of the ECCS. A series of small
               scale tests were conducted in 1970 and 1971 at a reactor
               testing facility in Idaho. These tests simulated the effects of
               breaks in reactor coolant pipes. Some of the test results
               indicated that increasing steam pressure in the reactor vessel
               following certain loss of coolant accidents could significantly
               slow down core cooling. In addition, some tests suggested that
               there could be significant losses of ECCS flow out of a pipe
               break.

               Earlier work had determined that a failure of ECCS represented
               a potential mechanism for breaching containment.11 The ECCS
               results in combination with the concerns over the potential for
               containment breaches represented a significant potential reactor
               safety concern. The AEC attempted to keep the information
               regarding the test results away from the public and
               congressional oversight. However, the information and AEC’s
               attempt to suppress it became public knowledge. As a result,
               emergency core cooling moved reactor safety to the center of
               public controversies over nuclear power. The issue became of
               such significance that it was the subject of congressional
               hearings before the Joint Committee on Atomic Energy.

               Senator Requests Comprehensive Assessment of Reactor
               Safety

               During the ECCS controversy, Senator Pastore wrote a letter to
               the AEC Chairman requesting a quantifiable and probabilistic
               evaluation of reactor safety.12 This letter appears to have been

11
   Concerns emerged in the late 1960s that containment failure may be conceivable under
certain severe accident conditions. In a report from Oak Ridge National Laboratory in
October of 1967, it was concluded that containment breaches were possible in reactor
accident scenarios involving a failure of ECCS. The possibility of a containment breach
represented a potential safety issue of great significance.
12
   Nuclear Reactor Safety: On the History of the Regulatory Process, David Okrent,
University of Wisconsin Press, 1981, (page 316).
                                           11
                                                   Perspective on NRC’s PRA Policy Statement



               the impetus for a 1972 study, “The Safety of Nuclear Power
               Reactors (Light Water-Cooled) and Related Facilities,” (WASH-
               1250) was circulated as draft for comments in late 1972 and
               later published in 1973.13 Because the study did not provide the
               quantifiable and probabilistic evaluation that was requested by
               the Senator, an evaluation of reactor safety was initiated in the
               summer of 1972.

               Rasmussen Report: Reactor Safety Study (WASH 1400)

               A project was initiated in the summer of 1972, led by Professor
               Norman Rasmussen of the Massachusetts Institute of
               Technology. The project report titled “The Reactor Safety
               Study” (WASH-1400) was published in 1975 and is also
               commonly referred to as the “Rasmussen Report.” The report
               identifies potential reactor accidents and accident sequences,
               and estimates the likelihood of fission product release during an
               accident sequence. The report also estimates the health effects
               due to the radiological release, and compares nuclear risks with
               other more common risks. The project was initiated under the
               auspices of the AEC; however, it was not published until after
               the NRC was formed in 1975 as part of the Energy
               Reorganization Act.

               This study was the first PRA used in reactor safety and
               established core damage frequency as a key new quantitative
               metric for reactor safety. The study employed fault tree and
               event tree methodology and extensive data to estimate failure
               rates of equipment. One important result of the study was
               identifying significant contributors to core damage, including
               small LOCAs and transients as dominant contributors to core
               damage frequency.14 The study represented a major milestone
               for using PRA in NRC regulatory programs and laid the
               foundation for risk quantification using a structured quantitative
               framework.

               Lewis Committee Review of Reactor Safety Study

               The Reactor Safety Study did not go without criticism. In 1978,
               Congressman Udall requested a reevaluation of its executive
               summary. In response, the NRC created the Risk Assessment




13
 Ibid.
14
 Nuclear Reactor Safety: On the History of the Regulatory Process, David Okrent,
University of Wisconsin Press, 1981, (page 319).
                                           12
                                   Perspective on NRC’s PRA Policy Statement



     Review Group, also known as the Lewis Committee, and
     charged them to review the Reactor Safety Study. The
     committee determined that WASH-1400 was successful in the
     following three ways:

     1.   making the study of reactor safety more rational,

     2.   establishing many of the potential accident sequences, and

     3.   creating methods and procedures for finding quantitative
          estimates of risk, using accident sequences and a data
          base.

     The Lewis Committee cited two primary problems with the
     Reactor Safety Study. First, the Committee stated that error
     bounds on the probabilities for accident sequences were
     extremely understated. The Lewis Committee claimed that this
     weakness was due to inadequate data, an inability to quantify
     common cause failures, and finally due to problematic
     procedures and statistical methods.

     The second primary problem reported by the Lewis Committee
     was the executive summary of The Reactor Safety Study. The
     Committee concluded that the executive summary was not
     adequately representative of the full report. The [NRC]
     Commission accepted the Committee’s findings and issued a
     statement directing the NRC staff not to use the results of
     WASH-1400 uncritically in regulatory decision-making. In
     addition, the Commission did not endorse the executive
     summary of the Reactor Safety Study.

C.   TMI: Increased Need for PRA Applications (1979-1995)

     On March 28, 1979, a series of design problems and human
     errors converged in a sequence of events that resulted in a
     partial core meltdown at the Three Mile Island (TMI) nuclear
     plant near Harrisburg, Pennsylvania. The accident occurred as
     public support for nuclear power was low, and only 4 years
     following the formation of the NRC.

     The accident sequence at TMI was the type of accident that the
     Reactor Safety Study had identified as a significant contributor
     to core damage frequency. Subsequent investigations into the
     TMI accident, recognized the safety insights provided by the
     PRA techniques in the Reactor Safety Study and recommended
     the agency more fully explore the applications of this
     methodology.

                             13
                                                   Perspective on NRC’s PRA Policy Statement




               Kemeny Report

               Following the March 1979 TMI accident, President Carter issued
               an Executive Order15 on April 11, 1979, creating an independent
               review commission. The commission was chaired by John G.
               Kemeny, who was president of Dartmouth College at the time.
               The commission and the resulting report are commonly referred
               to as the Kemeny report. The commission was tasked with
               conducting a comprehensive review of the accident at TMI. The
               executive order directed, among other things, that the
               commission’s study and investigation include causes of the
               event and provide recommendations based on the
               commission’s findings.

               The Kemeny report recommendations were wide ranging,
               including NRC organizational structure and statutory mandate.
               One recommendation called for increased safety research to be
               coordinated with the regulatory process, to assure maximum
               application to the nuclear power industry.

               The report recommended continuing in depth studies of the
               probabilities and consequences of nuclear power plant
               accidents, including consequences of meltdown. The report
               stated that these studies should be used to help with planning
               event recovery and cleanup, as well as identifying desirable
               modifications to help prevent accidents, and mitigate their
               consequences.

               Rogovin Report

               At the same time of the Kemeny report, NRC created a special
               inquiry group and published a report titled “three mile island: A
               Report to the Commissioners and to the Public.” The special
               inquiry group was headed by Mitchell Rogovin. The Rogovin
               report made many recommendations parallel to those in the
               Kemeny report, covering a wide range of regulatory programs
               and processes. The report includes a specific section on
               improving reactor safety by increasing the use of quantitative
               risk assessment.

               The Rogovin report called for quantitative risk assessment as a
               supplement to conceptualization of reactor safety beyond the
               limiting design basis approach. The report also noted that
               techniques involved in risk assessment had improved since

15
  Executive Order 12130, “President’s Commission on the Accident at Three Mile Island,”
April 11, 1979.
                                            14
                               Perspective on NRC’s PRA Policy Statement



WASH 1400, but the agency has been slow in putting these
methods into practice. The report discussed specific examples
of limitations in the traditional regulatory approach to reactor
safety. The report noted that The Reactor Safety Study had
identified accident sequences like those at TMI as dominant
contributors to core damage, and that the report preceded the
accident by 4 years.

PRA Related TMI Actions (1983-1989)

NRC took extensive actions in response to the TMI accident and
inquiries in the years following the accident. Many of these
actions are related to recommendations that NRC increase the
use of PRA in regulatory programs.

      Policy Statement on Safety Goals (1983)

NRC published its policy statement on Safety Goals in the
Federal Register on March 14, 1983. The final Federal Register
notice stated that the NRC was moving forward with the explicit
policy statement on safety philosophy in response to the TMI
accident and recommendations of the Kemeny report.

The policy stated that the regulatory practices in place at the
time were sufficient for adequate protection of public health and
safety. The statement added, “some probabilistic risk analyses
have already been performed for individual nuclear plants and
that safety inference might be made” by comparing these results
to the proposed safety criteria. The Commission directed
caution in making ultimate safety conclusions on that basis,
noting that collections of PRA analysis had not been
consistently performed, and large uncertainties were inherent in
existing probabilistic risk assessments.

      NUREG 1050 State of Art of PRA (1984)

In the plan for evaluating the Safety Goal Policy Statement,
NRC’s Office of Nuclear Regulatory Research was tasked to
collect information on PRA studies. This assignment included
the task of preparing a report available to the staff and the
public. The stated purpose of the report was to develop a
common understanding of the dominant contributors and the
probability of core melt. In addition, the report addresses the
public risk due to radiation from nuclear accidents.




                        15
                                Perspective on NRC’s PRA Policy Statement



NUREG-1050 “Probabilistic Risk Assessment (PRA) Reference
Document” was published in September 1984 in response to
that assignment. The report discussed the purpose and content
of PRA, the level of development that existed in PRA at that
time, as well as the uncertainties associated with PRA.
Potential uses of PRA are also discussed along with results of
PRAs performed as of the date of the report.

The report defined a PRA as an analysis that --

1.   identifies and delineates the combinations of events that
     will lead to severe accidents (severe core damage or core
     melt),

2.   estimates the frequency of occurrence of each
     combination, and

3.   estimates the consequences.

The report found that qualitative systems analysis (logic
modeling) for internal accident initiators had reached a highly
developed state; external initiators (seismic, fire, flood) were
less well developed. Also, the report found that the database
for events of high frequency was fairly good, but poor for events
of low frequency. For example, there was very limited data for
events initiated by highly reliable systems, because of their
reliability.

In addressing uncertainties, the report stated that the
uncertainties in core melt frequency for internal events are
generally an order of magnitude without considering modeling
assumptions. Uncertainties for core melt frequency for external
events were generally estimated to be between a factor of 10 to
30 above or below the point estimate. The report also indicated
that questions remained regarding the appropriateness in the
manner in which, statistical methods had been employed in
PRAs.

The report stated that “the frequency estimated for severe core-
damage accidents is usually low (on the order of once in 10,000
reactor-years). It is not possible to validate the results directly
because sufficient data does not exist.” It also noted that plant
specific design or operational features can have an important
influence on dominant accident sequences, making generic
validation difficult.



                         16
                                                   Perspective on NRC’s PRA Policy Statement



                       Severe Accident Policy (1985)

               NRC issued a final policy statement for severe accidents on
               August 8, 1985.16 The policy statement noted that many
               changes had been implemented in existing plants as a result of
               the TMI Action Plan (NUREG-0660 and NUREG 0737). The
               Commission also concluded that the currently operating plants
               posed no undue risk to public health and safety, and that no
               immediate actions were necessary based on severe accident
               risk.

               The policy statement established the definition of severe
               accident as one in which, there is substantial core damage
               whether or not there are serious offsite consequences. The
               policy statement identified PRAs as an important source of new
               information regarding the current position that reactors pose no
               undue risk. The policy statement credited PRAs as identifying
               unique vulnerabilities to severe accidents resulting in low cost
               changes to procedures and minor design changes. The
               statement indicated the Commission’s intent to engage in a
               systematic review of each nuclear plant operating and under
               construction; including a review of significant risk contributors
               that might be missed, absent a systematic plant specific search.

                       Individual Plant Examinations (1988)

               In furtherance of the severe accident policy, NRC issued
               generic letter 88-2017. The generic letter requested each plant
               to perform an Individual Plant Examination (IPE), to identify any
               plant-specific vulnerability to severe accidents. The staff listed
               four specific purposes for issuing this generic letter: (1) develop
               an appreciation of severe accident behavior, (2) understand the
               most likely severe accident sequences at each plant, (3) gain a
               more quantitative understanding of the overall probabilities of
               core damage and fission product releases, and (4) where
               necessary, reduce these probabilities by modifying hardware or
               procedures.

               A level one PRA was acceptable for the generic letter 88-20
               response, along with a variety of other methods. The use of
               PRA was strongly encouraged. The initial generic letter did not
               require the evaluation of external events (e.g., fires,



16
   The proposed policy was promulgated in the Federal Register on April 13, 1983, 48 FR
16014.
17
   U.S. Nuclear Regulatory Commission, Generic Letter 88-20, dated November 23, 1988,
Individual Plant Examination for Severe Accident Vulnerabilities.
                                            17
                                                Perspective on NRC’s PRA Policy Statement



              earthquakes, etc.). Later supplements did require evaluation of
              external events. In furtherance of the Severe Accident Policy
              Statement, the staff proposed and the Commission approved a
              severe accident integration plan in 1988.

                      NUREG-1150 “Severe Accident Risks: An
                      Assessment of Five U.S Nuclear Power Plants”
                      (1990)

              An element of the severe accident integration plan was the
              development by NRC of an updated, modern PRA of five
              reactors. This set of PRA evaluations was completed and
              published as NUREG 115018 in 1990.

              NUREG-1150 was an effort to update the Reactor Safety Study,
              incorporating new information. This report summarized detailed
              PRAs performed on five plants, including Peach Bottom and
              Surry, which were analyzed in the Reactor Safety Study.
              NUREG 1150 employed more comprehensive data sets, and
              employed improvements in risk assessment techniques in
              comparison to what was available for the Reactor Safety Study.
              The results of NUREG 1150 estimated the likelihood of core
              melt between 1 in 10,000 (104) and 1 in 100,000 (105) per plant
              per year.

              ACRS PRA Quality Concerns and PRA Working Group
              (1991-1993)

              In 1991, the Advisory Committee on Reactor Safety (ACRS)
              wrote a letter to the Chairman of the NRC. The letter
              acknowledged the potential usefulness and value of PRA as a
              risk assessment tool. The ACRS noted that PRA was beginning
              to be used with increasing frequency by the NRC staff. The
              memo expressed concern that PRA was not being used in a
              consistent manner specifically pointing to issues regarding
              treatment of uncertainties in calculated results and appropriate
              levels of conservatism.

              In response to the ACRS, the Executive Director for Operations
              (EDO) chartered a PRA Working Group in October of 1991.
              The Working Group completed its work in 1993 and issued a
              final report. The final report identified the need for
              improvements in PRA guidance, training, methods, and data
              bases.


18
 Severe Accident Risks: An Assessment of Five U.S Nuclear Power Plants, NUREG 1150,
December 1990.
                                         18
                                                 Perspective on NRC’s PRA Policy Statement



               In addition, the Regulatory Review Group report was chartered
               to review processes, programs, and practices to identify the
               feasibility of substituting performance based requirements and
               guidance founded on risk insights in place of prescriptive
               requirements. In 1993, the Regulatory Review Group
               completed its work and issued a report.

               In November 1993, the directors of the four major offices at
               NRC collectively sent a letter to the Executive Director for
               Operations, summarizing information from the Regulatory
               Review Group and the PRA Working Group. This memo
               suggested developing an integrated agency approach for
               increased PRA use considering the work of the review groups
               and ACRS criticisms regarding PRA. This memo, the Working
               Group report, and the work of the ACRS provided the direction
               for developing a 1994 SECY paper proposing the 1995 policy
               statement on PRA use.

               Development of PRA Policy Statement (1994-1995)

               SECY 94-12819 proposed that the Commission adopt and
               publish a policy statement on the use of PRA. The SECY paper
               stated that policy, legal, and technical issues would be raised in
               adopting increased use of PRA. The SECY paper identified
               several technical issues including uncertainties with calculated
               probabilities, limitations in data and modeling, difficulties in
               addressing design or construction errors, and difficulties in
               modeling human error and safety culture issues.

               The discussion contained in the SECY noted that NRC
               requirements, associated with defense-in-depth and with
               deterministic evaluation of design basis accidents had been
               effective in protecting public health and safety. The paper also
               noted that PRA, up to that point in time had been used to
               “complement” these traditional methods by facilitating an
               assessment of a broad range of beyond design basis accident,
               conditions involving multiple and complex failures, and system
               interactions. The paper also recommended the increased use
               of PRA, to the extent it is “supported by the state-of-the-art” in
               PRA methods, and tools in a manner “supportive” of the NRC’s
               traditional defense-in-depth philosophy.




19
  U.S. Nuclear Regulatory Commission, Proposed Policy Statement on the Use of
Probabilistic Risk Assessment (PRA), August 18, 1994.
                                          19
                               Perspective on NRC’s PRA Policy Statement



The Commission proposed minor modifications in approving the
proposed PRA policy statement later in 1994. The final policy
statement was published in the Federal Register in August 1995
and has not been revised since that date.

The policy suggests that the use of PRA should be increased,
but this increase should be tempered in two particular ways.
First, PRA should only be implemented to the extent that the
tools and data are the state-of-the-art. Second, PRA should
“complement” the deterministic approach and be supportive of
defense-in-depth. This can be achieved by --

1.   considering a broader set of potential challenges to safety,

2.   providing a logical means for prioritizing these challenges
     based on risk significance, and

3.   allowing consideration of a broader set of resources to
     defend against these challenges.

Along with the PRA policy statement, the staff developed and
issued a PRA implementation plan to carry forward initiatives in
support of the policy.




                        20
                                                  Perspective on NRC’s PRA Policy Statement


                                                                                Appendix A
PRA POLICY STATEMENT

              On August 16, 1995, the NRC issued a Final Policy Statement20
              regarding the use of PRA at the Nuclear Regulatory
              Commission. The Policy Statement has not been revised since
              that time and continues to represent the written expression of
              Commission policy regarding the use of PRA. The Policy
              statement provides key guiding principles regarding PRA
              applications. The actual statement of the Policy in section IV of
              the Federal Register Notice is repeated in full below:

              “Therefore, the Commission adopts the following policy
              statement regarding the expanded NRC use of PRA:


              1.    The use of PRA technology should be increased in all
                    regulatory matters to the extent supported by the state-of-
                    the-art in PRA methods and data and in a manner that
                    complements the NRC's deterministic approach and
                    supports the NRC's traditional defense-in-depth
                    philosophy.


              2.    PRA and associated analyses (e.g., sensitivity studies,
                    uncertainty analyses, and importance measures) should be
                    used in regulatory matters, where practical within the
                    bounds of the state-of-the-art, to reduce unnecessary
                    conservatism associated with current regulatory
                    requirements, regulatory guides, license commitments, and
                    staff practices. Where appropriate, PRA should be used to
                    support the proposal for additional regulatory requirements
                    in accordance with 10 CFR 50.109 (Backfit Rule).
                    Appropriate procedures for including PRA in the process
                    for changing regulatory requirements should be developed
                    and followed. It is, of course, understood that the intent of
                    this policy is that existing rules and regulations shall be
                    complied with unless these rules and regulations are
                    revised.


              3.    PRA evaluations in support of regulatory decisions should
                    be as realistic as practicable and appropriate supporting
                    data should be publicly available for review.


20
  Use of Probabilistic Risk Assessment Methods in Nuclear Regulatory Activities; Final
Policy Statement, August 16, 1995, 60 FR 42622.
                                           21
                               Perspective on NRC’s PRA Policy Statement



4).   The Commission's safety goals for nuclear power plants
      and subsidiary numerical objectives are to be used with
      appropriate consideration of uncertainties in making
      regulatory judgments on the need for proposing and
      backfitting new generic requirements on nuclear power
      plant licensees.”




                        22
                                                                                                                                                             Perspective on NRC’s PRA Policy Statement

                                                                                                                                                                                                         Appendix B




                                                                  Risk Developments and Historical
                                                                            Background
                                                                             1946-1975
                                                                                                                                                                            1975 WASH 1400
                                                                                                                                        1971
                                                                                                                                                                           Reactor Safety Study
                      1954                                                                                 1960-1962                Sen. Pastore                                 Risk Analysis with
                                                                                                         Initial Commercial            Letter                                     Probabilities and
              Atomic Energy Act 1954                                                                                                                                           Consequences combined
                Encouraging Civilian Development                                                               Reactors             Sen. Pastore letter to
                                                                                                             Operational           Chairman Schlesinger                          For risk Initiated by
                  Of Commercial Nuclear Power                                                                                                                                    AEC, finished NRC
                         (Walker pg 31)                                                                 Yankee Atomic 1960             requesting a
                                                                                                        Hallam          1962          comprehensive                                (316 317 OK)
                                                                                                        Indian Point 1 1962        assessment of reactor
                                                                                                          (Walker pg 78-80)                safety
                                                1958
  Pre AEA (1950)                         Elk River Licensing                                1960
  WASH-3/”rule of                             Decision projected                   Staff Develops Consistent
    thumb” citing                             radiation dose from                         Siting Criteria                                                             1973
Rad. exposure<300rem                      maximum credible accident;                   Defines “maximum                                                            WASH 1250
    R=0.01sqrt(P)                          need air tight containment                        credible                                                              Developed in
                                             for margin of safety                 accident”, caused by single                                                   response to Senator
                                               (Walker pg. 221)                   failure with most significant                                                  Pastore’s request;
                                                                                  release and has radiological                                                     criticized for
                                                                                       acceptance criteria                                                      lack of quantitative
                                                                                     (Walker pg 228 to 230)                                                     Treatment (316 OK)

                                                                                                                                                                                                   Continued
                                                                                                                                                                                                      on
                                                                                                                                                                                                    Page 24

                                                                                 1957
                    1946-1954                                         Price Anderson relies in
          AEC Review of AEC Reactor Safety                             Part on WASH 740 for
         Reactor Designers hypothesize “worst                       approval to show high cost
         case accident” design safety apparatus                       of unlikely but possible                                                     1970 - 1971
                      to prevent                                   catastrophic nuclear accidents                                                  LOFT Tests reveal
                                                                                                                                                 problems with ECCS
          ACRS review design and see if there                                                                                                    performance resulting
              is even a worse accident                                                                                                         in public controversy and
                   (Walker pg 61)                                                                                                             eventual ECCS rulemaking

                                                       1957
                                                                                                           1965
                                                   WASH 740 Issued
                                                        Three worst case                            Revision WASH 740
                                                    Hypothetical accidents                              Consequences worse than
                                                     Consequences analysis                               Original; AEC seeks to
                                                                                                           conceal full report
                                                                                                                                                                                   1975
                                                    General Characterization                                                                                                   Fire at Browns
                                                   of likelihood, but no one                            has 1/500 estimate large
                                                                                                                                                                             Ferry Nuclear Plant
                                                   knew or expected to know                                     Accident
                                                                                                                                                                               affects multiple
                                                    estimates of probabilities                              (Walker pg 125)
                                                                                                                                                                               safety systems
                                                      (Walker pg 203-207)




                                                                                                                  23
                                                                                                                                                                        Perspective on NRC’s PRA Policy Statement

                                                                                                                                                                                                          Appendix B




                                                                         Risk Developments and Historical Background
                                                                                         1975-1995

             1975 WASH 1400                                   1979
                                                         Commission issues                                                                                    1993
            Reactor Safety Study                         Policy disavowing
                Risk Analysis with                      Executive Summary                                                                                  SECY 93-330                          1995
                 Probabilities and                   of WASH 1400; numerical                                                                                    Final Report
              Consequences combined                                                                                1986                                                                      PRA Policy
                                                    values not used uncritically;                                                                              PRA Working
                For risk Initiated by                supports use of PRA where                               Chernobyl Accident                                    Group                     Statement
                AEC, finished NRC                  warranted and supported by data
                  (316 317 OK)                              (Rogers pg 2)


                                                                       1982, 1983, 1986
                                                                        Commission establishes
                                                                         Reactor Safety Goals
                                                                                                                                        1991                                         1993
                                                                                                                                     ACRS Memo                                 Regulatory Review
                                     1975                                                                                                 to Chairman
                              Nuclear Regulatory                                                                                         Selin critical                         Group Report
                             Commission Operation                                                                                        of staff use of
                                    Starts                                                                                                    PRA


Continued
  from
 Page 23
                                                                                             1984
                                                                                         NUREG 1050
                                 1977                                                  PRA reference state
                       Commission chartered Risk                                             of art
                      Assessment Group to review
                      WASH 1400; methods sound                                                                                          1990
                     uncertainties greater than stated
                      in report; executive summary                                         1988                                      NUREG 1150
                                Misleading                                                                                         PRA Analysis of 5 Plants;
                              (Rogers pg 2)                                            NRC Generic                                 More complex and detailed
                                                                                                                                       than WASH 1400;
                                                                                        Letter 88-20                                     PRA useful to
                                                                                        Request Plant Specific                      prioritize research and
                                                                                           Risk Evaluations                          Generic Safety Issues
                                                                                           IPE; understand
                         1979                                                            core damage look to                                                                     1993
                                                                                                reduce
               Three Mile Island Accident                                            risks by engr. controls and                                                         Agency PRA Direction
                      Post TMI Short Term Actions use                                    plant modifications                                                                   Memo to EDO Taylor
                           deterministic approaches
                                  (Rogers 3)                                                                                     1988
                   Presidential Commission Investigation
                   recognizes that WASH 1400 identified                                                                       SECY 88-147
                this type of accident sequence; need PRA to                   1983-1985                                     Severe Accident Integration
                    help prevent accidents and mitigate                                                                    Plan for Closure; coordinated
                                                                           Severe Accident                                  approach to understand and
                           accident consequences
                                                                           Policy Statement                                  Mitigate severe accidents




                                                                                                                          24
